STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD
SOLICITOR GENERAL
DIVISION OF APPEALS & OPINIONS

ATTORNEY GENERAL

June 3, 2021
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Healthcare Distribution Alliance v. James, No. 20-1611
Dear Mr. Harris:
I write on behalf of respondents Letitia James and Howard A. Zucker to
request an extension of time to oppose the petition for a writ of certiorari in this
matter. The current deadline is June 18, 2021, and respondents respectfully seek an
extension of thirty days, up to and including July 19, 2021, to file their opposition.
The extension is warranted because of the press of other matters and the need to
analyze the issues raised in the petition.
Petitioners’ counsel has authorized me to state that petitioners consent to this
request.
Thank you very much for your consideration,
Respectfully submitted,

Steven C. Wu
Deputy Solicitor General

28 LIBERTY STREET, NEW YORK, NY 10005-1400 • PHONE (212) 416-8020 • FAX (212) 416-8962 *NOT FOR SERVICE OF PAPERS
WWW.AG.NY.GOV

Cc:

Michael B. Kimberly
McDermott Will & Emery LLP
500 North Capitol Street NW
The McDermott Building
Washington, DC 20001
mkimberly@mwe.com

2

